BECKER GALLAGHER
Briefs

and

DoNNA J. WOLF, J.D.
JULIE A. KERSHNER, J.D.

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 40 copies and
1 unbound copy of the foregoing Brief of Boise Metro
Chamber of Commerce, Inc. as Amicus Curiae in
Support of Petitioner in 19-247, City of Boise v. Robert
Martin, et al., were sent via Two Day Service to the
U.S . Supreme Court, and 3 copies were sent via Two
Day Service and e-mail to the following parties listed
below, this 24th day of September, 2019:
Theane Evangelis Kapur
Gibson, Dunn and Crutcher, LLP
333 South Grand Ave.
48th Floor
Los Angeles, CA 90071
(213) 229-7726
tevangelis@gibsondunn.com
Counsel for Petitioner
Michael Evan Bern
Latham & Watkins, LLP
555 11th Street NW, Suite 1000
Washington, DC 20004-1304
(202) 637-1021
michael. bern@lw.com
Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001

www.beckergaltagher.com

8790 Governor's Hilt Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Craig L. Meadows
Counsel of Record
Thomas J. Mortell
Austin T. Strobel
Hawley Troxell Ennis & Hawley LLP
877 Main Street, Suite 1000
P.O. Box 1617
Boise, Idaho 83701-1617
(208) 344-6000
cmeadows@hawleytroxell.com

Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 24, 2019.

Donna J. Wolf
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

